Report No. D-2008-030        December 6, 2007




Management of the Defense Security Assistance
    Management System Training Module
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ASD(NII)/CIO          Assistant Secretary of Defense (Networks and Information
                         Integration)/Chief Information Officer
DSAMS                 Defense Security Assistance Management System
DSCA                  Defense Security Cooperation Agency
IG                    Inspector General
MAIS                  Major Automated Information System
OIG                   Office of Inspector General
PMO                   Program Management Office
                              INSPECTOR GENERAL

                             DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704





                                                                         December 6, 2007

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (NETWORKS
                 AND INFORMATION INTEGRATION)/CHIEF
                 INFORMATION OFFICER
               DIRECTOR, OPERATIONAL TEST AND EVALUATION
               DIRECTOR, DEFENSE SECURITY COOPERATION
                 AGENCY

SUBJECT: Management of the Defense Security Assistance Management System
         Training Module (Report No. D-2008-030)


        Weare providing this report for review and comment. When preparing the final
report, we considered comments from the Assistant Secretary of Defense for Networks
and Information Integration; the Director, Operational Test and Evaluation; and the
Director, Defense Security Cooperation Agency.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Although the Defense Security Cooperation Agency concurred with Recommen­
dations 3.a. through 3.g., we request additional comments stating what corrective actions
they will take and the effective date of those actions. We request that the Director,
Defense Security Cooperation Agency provide his comments on Recommendations 3.a.
through 3.g. by January 7,2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audacm@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Jacqueline L. Wicecarver at (703) 604-9077 (DSN 664-9077) or Ms. Karen J. Goff
at (703) 604-9005 (DSN 664-9005). See Appendix B for the report distribution. The
team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:


                                         jll      11,4     --L7
                                                    lJ;lfij7"'
                                       l/~tI'-~~ LA.,
                                      / Richard B. Jolliffe
                                     Assistant Inspector General
                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2008-030                                                  December 6, 2007
   (Project No. D2007-D000AS-0052.000)

               Management of the Defense Security Assistance 

                  Management System Training Module 


                                 Executive Summary 


Who Should Read This Report and Why? Personnel involved in the acquisition of
major automated information systems or large management information systems should
read this report to gain increased awareness of the potential cost, schedule, and program
risks to avoid.

Background. The Defense Security Cooperation Agency is responsible for developing
Security Cooperation Programs that are vital to U.S. national security. One of the
Defense Security Cooperation Agency’s Security Cooperation Programs is the
International Training Program, which offers training to foreign countries. The Defense
Security Cooperation Agency plans to manage and support the International Training
Program through the development of the Defense Security Assistance Management
System (DSAMS). The purpose of DSAMS is to create a single set of systems that will
develop new technology in the system’s design, reduce operations and support costs,
improve customer support, and standardize business processes across DoD. The DSAMS
Training Module is an automated information system that is intended to replace legacy
systems used by the Military Departments to train international personnel.

In August 1995, the Defense Security Cooperation Agency began developing DSAMS
with four core modules—Case Development, Case Implementation, Case Execution, and
Reconciliation and Closure. In August 1996, representatives from the International
Military and Education Training community began developing a fifth module, the
Training Module, to provide approximately 140 users from the Army, Navy, and Air
Force with a uniform management information system for the International Training
Program. The DSAMS Program Management Office deployed the Case Development
and the Case Implementation Modules in July 1999 and August 2000 respectively. In
October 2000, the Director cancelled the two modules other than training and estimated
that the Training Module would cost $30 million for development. The Training Module
is the only DSAMS module still under development, and as of October 2006, the actual
development cost was $96.9 million. DSAMS should not be considered fully operational
until the Training Module is fully implemented by the Army, Navy, and Air Force and
the computer program language is converted for the entire DSAMS.

Results. The DSAMS Program Management Office continued to develop cost estimates
for the Training Module that were not valid, delayed implementation of the module
six times in the last 9 years, and did not conduct risk management reviews for the module
as required. As a result, costs of DSAMS are escalating to an unknown amount, the date
of full operational capability is unknown, and other security cooperative initiatives have
been postponed due to resource constraints. See the Finding section of the report for the
detailed recommendations.
The internal controls for the DSAMS Training Module were not adequate. We identified
material internal control weaknesses in the controls for the costs, schedules, and risk
management for the DSAMS program.

Management Comments and Audit Response. The Acting Deputy Assistant Secretary
of Defense (Command, Control, Communications, Intelligence, Surveillance,
Reconnaissance, and Information Technology Acquisition), responding for the Assistant
Secretary of Defense (Networks and Information Integration)/Chief Information Officer,
concurred, stating the Assistant Secretary of Defense (Networks and Information
Integration)/Chief Information Officer will include the DSAMS Training Module on the
Designation of Major Automated Information System Programs and Information
Technology Services Oversight List. We ask that the Assistant Secretary of Defense
(Networks and Information Integration) provide the timeline to review the DSAMS
Training Module cost, schedule, and performance.

The Director, Operational Test and Evaluation concurred, stating he will include DSAMS
Training Module on the calendar year 2008 oversight list and require the program to meet
operational test and evaluation requirements.

The Director, Defense Security Cooperation Agency, concurred with our
recommendations to implement a strategic pause until several actions are completed.
However, he did not provide the corrective actions he will take to implement
Recommendations 3.a. through 3.g. or the effective date of those actions. We request
that the Director, Defense Security Cooperation Agency provide additional comments by
January 7, 2008.

Although not required to comment, the Director of Policy, Office of the Deputy Under
Secretary of the Air Force for International Affairs and the Commander, Air Force
Security Assistance Training Squadron provided unsolicited comments on the finding.
The director stated that DSCA discouraged spending funds to modify legacy systems to
achieve compliance with the Chief Financial Officers Act of 1990 and that the DSAMS
Program Manager has not provided a viable solution or commitment to achieve
compliance with the Chief Financial Officers Act of 1990. The commander stated that
the fifth delay resulted from recommendations from a Defense Financial and Accounting
Service working group member. The commander also stated that the Air Force does not
have a firm commitment from the DSAMS Program Manager to implement the Training
Module in October 2008.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents 


Executive Summary 	                                                              i


Background 	                                                                     1


Objectives 	                                                                     2


Review of Internal Controls 	                                                    2


Finding
      DSAMS Training Module Management 	                                         3


Appendixes
      A. Scope and Methodology 	                                                18 

          Prior Coverage                                                        19 

      B. Report Distribution 	                                                  20 


Management Comments
      Assistant Secretary of Defense for Networks and Information Integration   23 

      Office of the Secretary of Defense, Operational Test and Evaluation       25 

      Defense Security Cooperation Agency                                       26 

      Department of the Air Force 

         Office of the Deputy Under Secretary of the Air Force,

            International Affairs                                               28 

         Air Force Security Assistance Training Squadron                        29 

Background 

    The Defense Security Cooperation Agency (DSCA) is responsible for developing
    Security Cooperation Programs that are vital to U.S. national security. Security
    Cooperation Programs build trust during peacetime with foreign nations, allow
    DoD access to regions of the world during times of crisis, and ensure that DoD
    systems can operate with coalition partners during times of conflict. DSCA
    programs provide financial and technical assistance to foreign nations and
    material, training, and services to friends and allies. One of the DSCA programs
    is the International Training Program. The International Training Program offers
    training to foreign countries through the use of DoD schools. DSCA plans to
    manage and support the International Training Program with the implementation
    of the Defense Security Assistance Management System (DSAMS) Training
    Module.

    The Foreign Military Sales Trust Fund finances DSCA. The Foreign Military
    Sales Trust Fund receives its funding from fees charged for military sales to
    foreign governments. DoD Financial Regulation 7000.14-R, “DoD Financial
    Management Regulation,” volume 15, “Security Assistance Policy and
    Procedures,” chapter 3, “Accounting,” March 1993, requires that the Foreign
    Military Sales Trust Fund be managed as if Congress appropriated the funds.

    Defense Security Assistance Management System. DSAMS is an automated
    information system that is intended to replace legacy systems used by the Military
    Departments. The goal of the DSAMS Program Management Office (PMO) is to
    create a single system that will develop new technology in the system’s design,
    reduce operations and support costs, improve customer support, and standardize
    business processes across the Military Departments, the Defense Logistics
    Agency, the Defense Finance and Accounting Service, and DSCA.

    In August 1995, DSCA began developing DSAMS with four core Security
    Assistance Modules—Case Development, Case Implementation, Case Execution,
    and Reconciliation and Closure. In August 1996, DSCA began developing a fifth
    module, the Training Module, to provide approximately 140 users from the Army,
    Navy, and Air Force with a uniform management information system to manage
    the International Training Program. The DSAMS Program Manager deployed the
    Case Development and the Case Implementation Modules in July 1999 and
    August 2000, respectively. Then in October 2000, the Director, DSCA cancelled
    the Case Execution and Reconciliation and Closure Modules due to significant
    cost growth associated with the development of those modules. The Director,
    however, authorized the PMO to complete the development of the Training
    Module with a total estimated development cost of $30 million. The Training
    Module is the only module of DSAMS still under development, and as of
    October 2006, the actual development cost was $96.9 million.

    The Training Module. The DSAMS user community recognized the need for a
    separate module for the International Training Program because of the program’s
    uniqueness. The International Training Program provides international military
    personnel with formal, informal, correspondence or distance learning, and
    computer-aided instruction in the United States and overseas. The Training


                                        1

     Module is intended to replace legacy systems previously and currently being used
     by the Army, Navy, and Air Force to train international military personnel.

     The Defense Acquisition University Glossary of Defense Acquisition Acronyms
     and Terms states that full operational capability occurs when all units and
     organizations (users) receive, employ, and maintain the system. DSAMS will
     achieve full operational capability when the Training Module is fully
     implemented by the Army, Navy, and Air Force and the system’s obsolete
     computer language is converted to a new language. As of September 2007, the
     Training Module was not fully developed and was not deployed to the Air Force.


Objectives
     Our overall audit objective was to assess whether DSCA adequately planned and
     provided proper oversight during the development and implementation of the
     DSAMS Training Module. Specifically, we assessed whether the Training
     Module was more costly than current systems, used an obsolete computer
     language, provided the functionality required by users, and produced reliable
     information. We also reviewed the implementation of internal controls as it
     related to the overall objective. During the review we were not able to assess
     two of the announced objectives. See Appendix A for a discussion of the scope
     and methodology, the scope limitation of the announced objectives and prior
     coverage related to the objectives.


Review of Internal Controls
     We identified material internal control weaknesses for the acquisition of the
     DSAMS Training Module as defined by DoD Instruction 5010.40, “Managers’
     Internal Control (MIC) Program Procedures,” January 4, 2006. DoD
     Instruction 5010.40 states that internal controls are the organization, policies, and
     procedures that help program and financial managers achieve results and
     safeguard the integrity of their programs. As the approving official, the Director,
     DSCA did not establish internal controls necessary to control costs, schedules,
     and risks for the DSAMS program. For specific results of the weaknesses, see the
     Finding section of the report. Implementing the recommendations will correct the
     identified weaknesses. We will provide a copy of the final report to the senior
     officials responsible for internal controls in DSCA and in the Office of the Under
     Secretary of Defense for Policy.




                                           2

           DSAMS Training Module Management
           The DSAMS Program Manager continued to develop cost estimates for
           the Training Module that were not valid, delayed implementation of the
           module six times in the last 9 years, and did not conduct risk management
           reviews for the module as required. These conditions occurred because
           DSCA did not establish an acquisition management structure or have
           Defense Acquisition Workforce Improvement Act-certified acquisition
           professionals in key oversight and program management office positions
           to manage the DSAMS program. As a result, program costs of DSAMS
           are escalating to an unknown amount, the date of full operational
           capability is unknown, and other security cooperative initiatives are being
           postponed due to resource constraints.


System Cost Estimates
    The DSAMS Program Manager continued to develop cost estimates for the
    Training Module that were not valid. Additionally, the Director, DSCA did not
    notify the Assistant Secretary of Defense (Networks and Information
    Integration)/Chief Information Officer (ASD[NII]/CIO) when costs neared or met
    Major Automated Information System (MAIS) requirements and did not use
    official cost estimates to control escalating costs for the DSAMS program. A
    system can be classified as a MAIS when program costs exceed $126 million, the
    program is technologically complex, is critical to achieving a capability, is joint,
    or has congressional interest.

    Prior Recommendations. DSCA officials have not implemented previous
    recommendations we made to accurately report DSAMS costs and cost estimates
    to ASD(NII)/CIO. DoD Inspector General (IG) Report No. 98-095, “Defense
    Security Assistance Management System,” March 24, 1998, stated that the
    DSAMS PMO did not adequately estimate and report life-cycle costs causing the
    system to be misclassified as a non-major information system and exempting the
    system from MAIS reviews. A life-cycle cost is the total cost to the Government
    to acquire and own a system during its useful life. Life-cycle costs include
    program (development and acquisition costs), operations and support, and
    disposal costs.

    We recommended in the report that the Director, DSCA submit a life-cycle cost
    estimate prepared by the Institute for Defense Analyses to ASD(NII)/CIO for
    reclassification of DSAMS as a MAIS. The Director, DSCA nonconcurred with
    the recommendation and stated that DSAMS costs did not meet the MAIS
    threshold. The Director stated that DSCA would submit the Institute for Defense
    Analyses report to ASD(NII)/CIO if the cost estimate meets the MAIS threshold.
    After we issued Report No. 98-095, the Institute for Defense Analyses estimated
    that DSAMS developmental costs would be $118.7 million. The estimate,
    however, was not a life-cycle cost estimate and did not include life-cycle costs
    such as acquisition, operations and support, and disposal costs.




                                         3

We made recommendations to the Director, DSCA a second time in Report
No. D-2001-141, “Allegations to the Defense Hotline on the Defense Security
Assistance Management System,” June 19, 2001, stating that if DSAMS
development continued, DSCA should establish life-cycle cost estimate
documents to manage cost and schedule goals. The Director, DSCA concurred
with our recommendations and stated that a revised estimate was approved in
December 2000. The revised estimate projected development costs for
completing the Training Module at $30 million; actual costs as of October 2006
were $96.9 million. Additionally, the December 2000 estimate was not a
life-cycle cost estimate because it did not include costs for acquisition, operations
and support, and disposal costs for the Training Module.

Validity of Life-Cycle Costs. DoD Directive 5000.1, “The Defense Acquisition
System,” May 12, 2003, requires that program managers consider supportability,
life-cycle costs, performance, and schedule in making program decisions.
Program managers are also required to estimate total ownership costs as early as
possible. The DSAMS Program Manager, however, underestimated costs for the
Training Module. Specifically, the DSAMS Program Manager did not develop
estimates for all elements of life-cycle costs for the DSAMS program to include
program, operations and support, and disposal costs. Acquisition costs along with
developmental costs make up program costs.

        Program Costs. DoD Instruction 5000.2, “Operation of the Defense
Acquisition System,” May 12, 2003, requires that DoD Components contact
ASD(NII)/CIO when program costs, which include development and acquisition
costs, are within 10 percent of the $126 million threshold for a MAIS. The
DSAMS PMO officials stated that, as of October 2006, actual development costs
of the DSAMS program were $140.8 million; of that, $96.9 million was for the
Training Module. However, the Director, DSCA did not notify ASD(NII)/CIO
when actual DSAMS program costs were within 10 percent of exceeding the
threshold or when costs exceeded the threshold. In addition, the DSAMS
Program Manager did not estimate or track the acquisition costs, one element of
program costs. Acquisition costs include prime mission equipment, support
items, initial spares, and system-specific facilities costs.

        Operations and Support and Disposal Costs. The DSAMS Program
Manager did not estimate operations and support or disposal costs in life-cycle
cost estimates for the Training Module. Operations and support of a system
comprise two efforts: sustainment and disposal. The sustainment phase begins
with the deployment of the system to the system’s user. The disposal phase
begins after the system’s useful life and continues until the system is replaced.
The Training Module will not reach full operations capability until October 2011.
The DSAMS Program Manager did not include all operation and support costs for
the system, such as equipment, training material, and maintenance costs, in cost
estimates prepared for the DSAMS program.

       Additional DSAMS Costs. DSAMS costs could easily increase by
millions of dollars over the next 5 years. DSCA continues to develop the
Training Module requirements needed by the Air Force and issued a solicitation
to convert the system’s obsolete computer language to a new computer language.



                                      4

                  In March 2002, the Air Force changed the financial system with which the
          DSAMS Training Module would interface. Air Force officials stated that the new
          financial system was required to meet Air Force strategic goals and objectives.
          The contractor developing the Training Module estimated that the change would
          require more than 7,800 hours of additional work to analyze, design, construct,
          and test this new requirement. However, the DSAMS PMO officials could not
          provide the cost of the effort needed for the additional Air Force requirement.

                  DSCA officials stated that they must convert the DSAMS from obsolete
          Forté computer language to a different computer language. In October 2003, the
          vendor formally announced that as of April 2009, they would no longer provide
          technical support for the Forté language. DSCA contracted with the vendor for
          support starting in November 2006 to continue the maintenance and support of
          the obsolete computer language until October 2007, at a cost of $400,000. The 1­
          year contract also has a 1-year option to continue this maintenance and support
          from November 2007 through October 2008 for an additional cost of $600,000;
          PMO officials intended to exercise this option. The DSAMS Program Manager
          stated that the conversion from the Forté computer language could be as much as
          $26 million.

          The DSAMS Program Manager did not comply with DoD Directive 5000.1 or
          DoD Instruction 5000.2 because he did not estimate life-cycle costs for the
          Training Module. The Director, DSCA should develop and implement a Plan of
          Action and Milestones for the Training Module that includes the elements of the
          module’s life-cycle costs—program, operations and support, and disposal costs—
          to include the additional costs needed to convert the system’s computer language.
          The plan should detail resources required to accomplish the elements of the plan,
          milestones developed to accomplish identified tasks, and estimated completion
          dates to accomplish the milestones. If such a plan is not developed, the Director,
          DSCA will continue to make uninformed management decisions for the DSAMS
          program, which could result in increased and unknown cost growth, delayed
          schedule implementation, and continued risk.

          MAIS Requirements. DoD Instruction 5000.2 states that a program is a MAIS
          when total program costs exceed $126 million in FY 2000 constant dollars, the
          program is technologically complex, is critical to achieving a capability, is a joint
          program, or has congressional interest. DSAMS meets the MAIS requirements.
          DSCA officials stated the following about DSAMS.

                   •	 The actual program costs for the DSAMS program as of October 2006
                      were $140.8 million, 1 which exceeds the MAIS threshold by
                      $14.8 million.

                   •	 The technology is complex. The system interfaces with approximately
                      20 DoD systems and has approximately 1 million lines of computer
                      code.



1
    We were not able to convert DSAMS actual costs to FY 2000 constant dollars because the DSAMS
    Program Manager did not provide all cost data on a monthly and yearly basis.



                                                   5

           •	 DSAMS is critical to providing the U.S. Military a uniform training
              system to manage the International Training Program.

           •	 DSAMS is a joint system. DSAMS end users comprise personnel
              from the Army, Navy, and Air Force

           •	 DSAMS has congressional interest. Because of congressional interest
              we initiated this review.

    Official Cost Estimates. DSCA officials prepared three cost estimates for
    DSAMS and twice revised the estimates in official baseline documents. The first
    time DSCA officials revised the DSAMS cost estimate was in November 1998.
    The second time was during a program review in December 2000. However, the
    DSAMS Program Manager did not use the baseline documents to control or
    monitor DSAMS costs when actual program costs neared or exceeded estimated
    costs. For example, DSCA officials established cost and schedule estimates at
    DSAMS inception in 1995 and then again in 1998 and 2000, but did not update
    the estimates when actual costs exceeded planned amounts. Additionally, the
    DSAMS Program Manager did not use official baseline documents to control
    spending, which resulted in the cancellation of two DSAMS modules. DSCA
    officials stated that the Case Execution Module and Reconciliation and Closure
    Module were cancelled because of significant cost overruns. The DSCA CIO
    stated that DSCA still needs the functionality of the two cancelled modules, and
    that DSCA planned to include the functionality in the Case Execution
    Management Information System.

    In October 2001, the Director, DSCA estimated the remaining Training Module
    development costs at $30 million, with a completion date of December 2003.
    However, the Training Module exceeded the contractor labor costs in
    October 2002, 15 months prior to the module’s scheduled completion date of
    December 2003. The DSAMS program is 9 years behind schedule and two and a
    half times more costly than the original 1995 estimate because the DSAMS
    Program Manager did not follow acquisition guidance that requires continual
    assessments and cost updates. The Director, DSCA and the DSAMS Program
    Manager should develop a Plan of Action and Milestones that identifies tasks,
    resources, and milestones needed to complete DSAMS and fully deploy the
    Training Module to the Air Force. The plan would help program officials
    monitor and control escalating costs, as well as repeated schedule slippages.


Deployment Schedule
    DSCA officials delayed implementation of the Training Module to the Army, the
    Navy, and the Air Force six times in the last 9 years. However, the Director,
    DSCA only documented four of his six decisions to delay the Training Module’s
    deployment.

    First Delay. As a result of recommendations we made in Report No. 98-095, the
    DSAMS PMO in February 1998, among other things, revised the timelines to
    February 2001 for the simultaneous deployment of the Training Module to the


                                        6

           Army, the Navy, and the Air Force. This was the first of six times the Director,
           DSCA delayed deployment of the DSAMS Training Module. The report
           recommended that the Director, DSCA prepare a mission needs statement, an
           operational requirements document, an acquisition strategy and plan, and a test
           and evaluation master plan. Additionally, DSCA officials were to establish a
           program cost and deployment estimates for the DSAMS Program Manager to use
           to manage and control cost growths and schedule slippages.

           Second Delay. During a December 2000 program review, the director changed
           the Training Module’s deployment date, for the second time, from February 2001
           to December 2003. According to the December 2000 program review documents,
           the DSAMS Program Manager stated that the system could be deployed to the
           Army, Navy, and Air Force only at the beginning of a fiscal year. Further, the
           DSAMS Program Manager listed this as a “key issue” in his briefing to the
           director; however, the director did not take this into consideration when making
           the revised deployment schedule. Therefore, the director’s revised target
           deployment of December 2003 was not realistic because the deployment date was
           not at the beginning of a fiscal year.

           Third Delay. During another program review in November 2002, the DSAMS
           Program Manager incorrectly stated that the requirement to deploy the Training
           Module at the start of a fiscal year was new. According to the program manager,
           this requirement resulted in October 2004 becoming the target deployment date.
           Although the Director, DSCA did not issue a decision memorandum changing the
           deployment date, documentation from the program manager illustrates that
           October 2004 became the target deployment date at that time. This was the third
           time that DSCA delayed the Training Module deployment.

           Fourth Delay. In July 2004, the Director, DSCA revised for the fourth time the
           date for the module’s deployment. The director moved the target deployment
           date from October 2004 to October 2005. According to the DSAMS Program
           Manager, the Deputy Director, DSCA moved the date because the DSAMS
           Program Manager briefed results from a readiness assessment. Those results
           indicated that the DSAMS PMO personnel would not be able to complete final
           integration testing of the module before the scheduled October 2004 deployment.

           Fifth Delay. In August 2004, a new director took over DSCA. The new director
           discussed the Training Module during Security Cooperation-5 meetings. 2 The
           new director revised the deployment date a fifth time in November 2004 when the
           DSAMS PMO personnel briefed the Security Cooperation-5 and requested that
           the module’s deployment be postponed until October 2006. During the
           November 2004 briefing, the DSAMS Program Manager stated the request was
           because the Air Force changed the financial system with which the module would
           interface. However, the Air Force provided DSCA with its decision to change
           financial systems in 2002. According to the Air Force, the revised requirements
           that caused this delay were based on recommendations from the Defense Finance
           and Accounting Service working group team member.


2
    The Security Cooperation-5 consists of the Director and Deputy Director, DSCA, and their counterparts
    in the Army, Navy, and Air Force.



                                                      7

           Sixth Delay. The Director, DSCA postponed the Training Module for the sixth
           time in September 2005. The Director realized that a simultaneous deployment of
           the module to the Army, Navy, and Air Force would not occur. However,
           without a simultaneous deployment, the Training Module would not operate as
           intended. Based on this information and according to the milestone decision
           memorandum, the Director, DSCA required the DSAMS PMO personnel to
           implement a workaround called the “black box.” 3 The director implemented the
           black box workaround to reduce the risk of further delaying implementation of
           the Training Module to the Army and Navy, scheduled in October 2006.

           The purpose of the workaround was to achieve a tangible product, use of the
           Training Module, at the earliest feasible opportunity, even though DSAMS will
           not be fully deployed or achieve full operational capability until it is fully
           implemented by the Air Force. The Training Module cannot operate as intended
           without the Air Force training information. The milestone decision memorandum
           stated that DSCA would deploy the Training Module to the Air Force “as soon as
           possible” following the deployment to the Army and Navy. In October 2006, the
           Army and the Navy implemented the Training Module. According to the
           DSAMS Program Manager, the Air Force will implement the module in
           October 2008, which would enable DSAMS to finally reach full operational
           capability.

           Additional Delays. Further delays threaten the Air Force implementation of the
           Training Module, which is currently scheduled for October 2008. For example, if
           DSCA officials do not deploy the Training Module to the Air Force in
           October 2008, DSAMS PMO personnel will need to reprioritize the workload of
           computer programmers in order to convert the DSAMS computer language, Forté,
           instead of programming and testing the Air Force portion of the Training Module.
           According to the Forté vendor, they will no longer support Forté as of April 2009.
           DSAMS programmers stated that the system can operate for 18 to 24 months
           without vendor support. Further, in response to a request for information,
           vendors estimated that the time required to convert from the Forté language could
           range up to 36 months. If Forté is not converted until October 2010, the
           requirement to deploy the Training Module at the start of a fiscal year could delay
           deployment to the Air Force until October 2011. The implementation of the
           Training Module to the Air Force and full operational capability of DSAMS is
           still at risk. Despite identifying in May 2001 that the conversion of the Forté
           computer language was a risk to the DSAMS program, DSCA officials had not
           developed a timeline or a documented plan to convert the computer language until
           June 2007.

           The Director, DSCA must develop and implement a plan that identifies tasks
           needed to deploy the Training Module to the Air Force by October 2008 and
           life-cycle cost estimates needed to track and monitor spending, which include
           converting the system’s computer language to a new computer language. The
           plan should detail resources required to accomplish the elements of the plan, the
           milestones to complete tasks, and scheduled completion dates for the milestones.


3
    The “black box” is a computer program that converts Air Force legacy data into information that the
    Training Module can process. Air Force officials enter training information data into the “black box.”



                                                       8

Risk Management 

    Risk Management Requirements. DSCA officials did not adequately conduct
    risk management reviews of the Training Module as required. Federal
    Acquisition Regulation 7.105, “Contents of Written Acquisition Plans,”
    September 28, 2006, requires that an acquisition plan discuss technical, cost, and
    schedule risks and describe planned and ongoing actions to reduce risk and the
    consequences of failure to achieve goals. In addition, Federal Acquisition
    Regulation 39.102, “Management of Risk,” September 30, 2006, requires that an
    agency analyze risks, benefits, and costs prior to entering into a contract for
    information technology. The agency is also required to take reasonable risks as
    long as the risks are controlled and mitigated. Additionally, the regulation states
    that contracting and program officials are jointly responsible for assessing,
    monitoring, and controlling risk when selecting projects for investment and
    during program implementation.

    The conceptual design document, which was the primary document that
    DSCA officials used to support the DSAMS acquisition, did not identify risks or a
    risk avoidance strategy. Additionally, DSCA officials did not take reasonable
    risks or try to control and mitigate risks as required. According to the DSAMS
    Program Manager, risk management for DSAMS was addressed in program
    management quarterly reviews; however, the program manager did not formally
    document risk management discussions prior to 2001. According to the program
    manager, DSCA officials established the Risk Management Board (the Board)
    who held their first meeting in May 2001.

    Risk Management Board. The DSAMS Program Manager stated that the Board
    was established in May 2001 but ceased meeting in January 2004 due to high
    contractor turnover. The program manager also stated that disbanding the Board
    was inconsequential because the focus of the meetings shifted from risk
    management to discussions of system implementation. Additionally, the risk
    management process employed by DSCA officials was not effective because
    many of the risks occurred or were not properly mitigated. The documented risks
    were major in scope but lacked an adequate description of actions taken by
    DSCA officials to mitigate or avoid identified risks.

    At the time of the Board’s disbandment, the Board identified 44 risks to cost,
    schedule, and quality of the Training Module. Board members determined that of
    the 44 risks, 16 were avoided, 14 were not resolved, 6 were deleted, 3 were
    deemed “not applicable,” 3 were mitigated, and 2 did not occur. The DSAMS
    Program Manager did not explain in risk management documents the reason the
    six risks were deleted. The Board identified 26 of the 44 risks that were
    considered a high or medium risk to the cost, schedule, or quality of DSAMS.
    The Board stated that risks were avoided or mitigated in the following four major
    categories: user and performance, personnel, functionality, and security risks.

            User and Performance Risks. In May 2001, the Board identified risks
    that directly related to the mismanagement of the Training Module’s user
    requirements. Board members stated that there was a risk that some user
    requirements were old and no longer valid, system performance requirements


                                         9

           were not realistic, and that no acceptance criteria existed for the system.
           According to program documents, the Board recommended that to mitigate this
           risk, DSCA officials should review the user requirements and conduct site visits
           to reestablish valid requirements. According to system users, DSCA officials
           revalidated user requirements and conducted site visits. The users, however,
           stated that DSCA officials did not accurately capture the financial requirements
           essential for the module’s business processes. Although the Board considered
           user requirement risks “avoided,” the users stated that they still were not aware of
           the current design and functionality requirements established for the module.

                   DSCA officials also did not identify all Training Module performance
           requirements. DSCA officials, DSAMS programmers, and system users
           conducted a stress test of the Training Module, which revealed the need to acquire
           eight additional servers 4 to accommodate the additional end users. Board
           members stated in June 2003 that there was a potential risk to cost and schedule.
           They stated that the system’s servers could not handle the user workload once the
           module became fully operational and that the additional servers used a different
           operating system than current servers. DSCA officials, however, did not conduct
           an analysis of alternatives to determine the best plan of action that would
           minimize the impact to cost and schedule. Instead, DSCA officials acquired the
           eight additional servers, which caused the Training Module to experience
           additional deployment delays and cost overruns.

                   Personnel Risks. The Board identified numerous times that there were
           not enough personnel to complete the design, testing, and refinement of the
           Training Module. The lack of personnel was due, in part, to high contractor
           turnover, lack of communication between the different contractor and
           Government development teams, and a lack of skilled developers. According to
           program documents, the Board planned to mitigate the personnel risk by hiring
           more people, reassigning personnel to specific functional areas, and adjusting the
           deployment schedule to later target dates. However, the DSAMS Program
           Manager and the Director, DSCA actually reduced contractor personnel.
           Consequently, the lack of skilled developers and contractor personnel contributed
           to cost overruns and schedule delays for the Training Module.

                   Functionality Risks. In May 2001, the Board identified significant risks
           to the Training Module’s cost and schedule based on functionality requirements.
           The Board identified a risk that the vendor would no longer support the module’s
           computer language, Forté. The vendor agreed to provide technical support for the
           computer language for only 5 years from the last version of the Forté release.
           Because the Board deemed the risk “not applicable,” the DSAMS PMO personnel
           continued developing the Training Module using the Forté computer language.
           DSCA officials stated that there was “sufficient planning time available” to
           identify a process to change the module’s computer language at a later date. In
           October 2003, the risk was realized when the vendor announced that they would
           no longer support the Forté language beyond April 2009. DSCA officials
           estimate that changing the module’s computer language could add as much as
           $26 million to the cost of the DSAMS program. As of September 2007,

4
    Servers are computers that communicate with other computers to process end user tasks.



                                                     10 

           DSCA officials still have not selected the new computer language or the
           contractor that will complete the work, nor have they determined the cost.

                   Security Risks. In February 2007, the Director, DSCA issued a
           memorandum stating that DSCA officials planned to deviate from the security
           requirement to use only personnel who successfully completed a security
           investigation to work on converting the Training Module’s computer language.
           Federal Information Processing Standards Publication 201-1, “Personal Identity
           Verification of Federal Employees and Contractors,” March 2006, states that
           Government-wide departments and agencies must initiate a National Agency
           Check with Inquiries or a national security investigation prior to issuing
           credentials for all employees and contractors by October 27, 2005. In addition,
           the Federal Information Security Management Act of 2002 states that waivers to
           Federal Information Processing Standards are not allowed. However, in
           March 2007, the DSAMS Program Manager received approval from the Deputy
           Under Secretary of Defense for Counterintelligence and Security; the Director for
           Information Assurance in the Office of the ASD(NII)/CIO; and the Director,
           Defense Procurement and Acquisition Policy to deviate from the security
           investigation requirement in order to solicit foreign firms to convert the system’s
           computer language.

                   The Director, DSCA stated that it was necessary to deviate from the
           security investigation requirement “in order to attract an adequate pool of capable
           firms.” This is the second time the Director, DSCA took undue personnel
           security risks during the DSAMS development. In Report No. D-2001-141, we
           recommended that DSCA include the requirement in all present and future
           contracts to conduct security investigations on contractor and subcontractor
           employees. Lack of security investigations poses a significant risk to the security
           of the module’s development and the interfacing systems. The Director, DSCA
           must comply with the Federal Information Processing Standards
           Publication 201-1 to conduct security investigations on anyone developing or
           implementing DSAMS. DSCA officials should implement a risk management
           process to monitor and control the risks identified in this report and potential
           future risks.


Management Oversight
           DSCA did not establish an acquisition management structure. Further, DSCA did
           not have Defense Acquisition Workforce Improvement Act-certified acquisition
           professionals who occupied key oversight and PMO positions to manage the
           DSAMS program.

           According to an ASD(NII)/CIO official, the DSAMS program is in the production
           and deployment phase 5 of the Defense Acquisition Management Framework. We
           made repeat recommendations to ASD(NII)/CIO in 1998 and 2001 to classify
           DSAMS as a MAIS. ASD(NII)/CIO did not concur with the recommendation but

5
    The purpose of the production and deployment phase is to achieve an operational capability that satisfies
    mission needs.



                                                       11 

did place DSAMS on the information technology initiatives listing, which was
subject to review by the DoD Chief Information Officer. However, in July 2003,
ASD(NII)/CIO stopped overseeing DSAMS, stating that its oversight of the
program added little value; thus, DSAMS was exempt from any further
ASD(NII)/CIO review. In July 2007, an ASD(NII)/CIO official again stated that
ASD(NII)/CIO oversight of the DSAMS program, as a MAIS program at this
phase of its development, would add no additional value to the program. The
findings identified in this and prior audit reports are significant enough to require
additional oversight and independent testing of the program.

Acquisition Management Structure. The DSCA Chief Information Officer
issued a memorandum in October 2001, which stated that the Director, DSCA
would serve as the DSAMS program milestone decision authority. The milestone
decision authority has overall program responsibility. As the milestone decision
authority, the Director, DSCA is required to assign acquisition program
responsibilities to a program executive officer. However, the Director, DSCA did
not formally establish a program executive officer position to fulfill those
responsibilities. The Director, DSCA should immediately establish a program
executive officer position and designate a certified acquisition professional to the
position.

The production and deployment phase requires that systems undergo an
operational test and evaluation to determine the effectiveness and suitability of
the system under realistic operational conditions. According to DoD
Instruction 5000.2, the Test and Evaluation Oversight List would require that
DSCA establish an operational test readiness process, which would include the
following:

       •	 a review of the developmental test and evaluation results,

       •	 an assessment of the system’s progress against critical technical
          requirements documents in the test and evaluation master plan,

       •	 an analysis of identified technical risks to verify that risks were
          mitigated during developmental testing, and

       •	 a review of the initial operational test and evaluation entrance criteria
          specified in the test and evaluation master plan.

An official from the Office of the Director, Operational Test and Evaluation
stated that to effectively test a system at the end of the system’s development, the
functional sponsor must update the operational requirements document. The
official stated that the operational requirements document identifies the functional
requirements of a system’s acquisition. In September 1998, the DSAMS Program
Manager prepared a requirements document that has not been updated since. The
Operational Test and Evaluation official stated that an operational requirements
document is crucial to measure a system’s performance because results of testing
are measured against the requirements identified in that document. The DSAMS
Program Manager must update the operational requirements document in
coordination with DSAMS users in order to develop an effective measurement



                                     12 

    tool to determine whether DSAMS is operating as intended when the system is
    fully operational.

    Based on significant concerns identified in this report, ASD(NII)/CIO should
    again place the DSAMS program on the information technology initiatives listing
    and oversee the program. In addition, the Director, Operational Test and
    Evaluation should include the DSAMS program on the Office of the Secretary of
    Defense Test and Evaluation Oversight List. Including the DSAMS program on
    the Test and Evaluation Oversight List would require DSCA officials to comply
    with the operational test readiness process in DoD Instruction 5000.2. Managers
    overseeing the DSAMS program would have specific test and evaluation criteria
    to measure system performance before the system exits the acquisition
    development framework. Lastly, placing DSAMS on the Test and Evaluation
    Oversight List would provide the Director, DSCA and DSAMS users with the
    confidence that the system will meet operational requirements when the Army,
    Navy, and Air Force fully implement the system.

    Certified Acquisition Professionals. A program manager must have at least
    6 years of acquisition experience. A program executive officer must have at least
    10 years of acquisition experience, including experience in a program manager
    position. The Defense Acquisition Workforce Improvement Act, section 1735,
    “Education, Training, and Experience Requirements for Critical Acquisition
    Positions,” lists mandatory qualifications for personnel in certain positions. It
    states that before someone becomes a program manager or program executive
    officer, that person must complete the program management course at the Defense
    Systems Management College or a management program at an accredited
    institution deemed comparable by the Secretary of Defense. In addition, the
    DSCA Chief Information Officer memorandum stated that ASD(NII)/CIO
    recommended that DSCA personnel who occupy key program management office
    positions should take appropriate action to become certified acquisition
    professionals.

    However, the Director, DSCA did not formally establish an information security
    program executive officer to manage the acquisition of DSCA information
    systems, including DSAMS. Further, the DSAMS Program Manager did not have
    the training or acquisition experience required by the Defense Acquisition
    Workforce Improvement Act, section 1735, needed to effectively manage the
    DSAMS program. The inadequate management caused cost overruns and delays
    in schedules for the development, acquisition, and implementation of the DSAMS
    program. The Director, DSCA should immediately hire a qualified program
    executive officer and appoint a program manager with the acquisition experience
    and training required by Defense Acquisition Workforce Improvement Act,
    section 1735.


Conclusion
    Costs of DSAMS are escalating to an unknown amount, the date of full
    operational capability is unknown, and other security cooperative initiatives have
    been postponed due to resource constraints. Two prior DoD IG reports offered


                                        13 

    recommendations that would have assisted the DSCA officials in improving
    oversight and implementing adequate internal controls. However, management
    actions did not meet the intent of the recommendations. Without an acquisition
    framework managed by trained officials, the DSAMS program will likely
    continue to experience cost growth and delayed schedules. Further, without a
    cost estimate that includes all costs DSCA expects to incur due to the
    implementation of the new system, decision makers within DoD and Congress
    will not have the complete cost information they need to decide whether adequate
    resources are provided.

    Given the problems DSCA has had with costs, schedule, and management
    oversight, the Director, DSCA should “strategically pause” the development of
    the DSAMS program. The strategic pause would enable program officials to
    develop a life-cycle cost estimate, develop a Plan of Action and Milestones,
    update acquisition documents, implement a risk management process, and appoint
    and hire qualified personnel for DSAMS. The strategic pause would be in effect
    until program officials have completed the recommendations made in this report.


Management Comments on the Finding and Audit Response
    The Director, DSCA provided comments on the Finding section of the report.
    Although not required to comment, the Director of Policy, Office of the Deputy
    Under Secretary of the Air Force for International Affairs and the Commander,
    Air Force Security Assistance Training Squadron also provided unsolicited
    comments on the finding.

    DSCA Comments. The Director, DSCA stated that the report did not convey the
    operational status of the DSAMS program. He stated that the Case Development
    and Case Implementation Modules of DSAMS have been operational since 1999
    and 2000, respectively, and that the Army and Navy have been using the Training
    Module for one fiscal year. The director stated that he regards DSAMS as an
    operational system and views the transformation of the Forté computer language
    as a maintenance issue, not a development milestone toward full operational
    capability. The director also stated that personnel working on the Forté
    programming language transformation will receive a trustworthiness certification,
    usually a National Agency Check with Inquiries, or the national equivalent.

    Audit Response. Although the DSCA Program Manager deployed the first
    of three DSAMS modules in 1999, the system has not achieved full operational
    capability. The Defense Acquisition University Glossary of Acronyms and Terms
    states that a system achieves full operational capability when all the organizations
    scheduled to receive a system receive it and have the ability to employ and
    maintain it. The Air Force has not implemented the DSAMS Training Module.
    Further, the ability of DSCA to maintain the system will likely decrease over time
    when the Forté vendor no longer supports the computer language. If the Training
    Module is not deployed to the Air Force in October 2008, DSCA plans to
    postpone deploying the module to the Air Force until after the Forté computer
    language is converted. Therefore, per the Defense Acquisition University
    glossary, the full operational capability of DSAMS will be achieved when


                                        14 

    DSAMS is deployed to the Air Force and the Forté computer language is
    converted.

    Director of Policy, Office of the Deputy Under Secretary of the Air Force for
    International Affairs Unsolicited Management Comments. Although not
    required to comment, the Director of Policy, Office of the Deputy Under
    Secretary of the Air Force for International Affairs stated that for more than
    10 years, DSCA discouraged the Services from spending funds to modify their
    legacy systems. The director stated that DSCA views compliance with Public
    Law 101-576, “Chief Financial Officers Act of 1990,” (the CFO Act) as a
    disruption to the DSAMS Training Module and has fought to limit any
    expenditure of funds to achieve compliance. Further, the director stated that the
    CFO Act is not optional and DSCA has not provided a viable solution that
    includes visibility into the Training Module’s milestones or a commitment for a
    deployment date so that compliance with the CFO Act can be achieved.

    Air Force Security Assistance Training Squadron Unsolicited Management
    Comments. Although not required to comment, the Commander, Air Force
    Security Assistance Training Squadron stated that the report should clarify that
    the Air Force does not have a firm commitment from the DSAMS Program
    Manager that the Air Force will implement the Training Module in October 2008.
    The commander stated that recent e-mails from the DSCA Chief Information
    Officer indicated that the module’s implementation in October 2008 is “high
    risk.” The commander also stated that the fifth delay of the Training Module was
    a result of revised requirements based on recommendations made by the Defense
    Finance and Accounting Service working group team member to help the Air
    Force achieve compliance with the CFO Act.

    Audit Response. DSAMS program office personnel stated that they have
    attempted to make DSAMS compliant with the CFO Act. Additionally, we
    recognize that the Air Force is operating with a legacy system that has not been
    funded for upgrades in more than 10 years. The purpose of the CFO Act is to
    improve the financial information produced by the Federal Government
    However, our announced objectives did not include determining whether DSAMS
    complied with the CFO Act or the amount of funding spent on legacy system
    upgrades. We modified the finding section of the report to address the Air Force
    comments on the fifth delay of the DSAMS Training Module.


Recommendations, Management Comments and
  Audit Response
    1. We recommend that the Assistant Secretary of Defense (Networks and
    Information Integration)/Chief Information Officer include the Defense
    Security Assistance Management System on the information technology
    initiatives listing and oversee the system’s cost, schedule, performance, and
    testing until the system is fully operational and the system’s computer
    language is converted.




                                       15 

Management Comments. The Acting Deputy Assistant Secretary of Defense
(Command, Control, Communications, Intelligence, Surveillance,
Reconnaissance, and Information Technology Acquisition), responding for the
ASD(NII)/CIO, concurred, stating the ASD(NII)/CIO will include the DSAMS
Training Module on the Designation of Major Automated Information System
Programs and Information Technology Services Oversight List.

Audit Response. The ASD(NII)/CIO comments were partially responsive to the
recommendations. We request that the ASD(NII)/CIO provide the timeline to
review the DSAMS Training Module cost, schedule, and performance.

2. We recommend that the Director, Operational Test and Evaluation
include the Defense Security Assistance Management System on the Test and
Evaluation Oversight List and require the program to meet initial and
operational test and evaluation requirements in DoD Instruction 5000.2,
“Operation of the Defense Acquisition System,” May 12, 2003.

Management Comments. The Director, Operational Test and Evaluation
concurred, stating he will include DSAMS on the calendar year 2008 oversight
list and require the program to meet operational test and evaluation requirements.

Audit Response. The Office of the Secretary of Defense, Operational Test and
Evaluation comments were responsive to the recommendations and no further
comments are required.

3. We recommend that the Director, Defense Security Cooperation Agency
implement a strategic pause for the Defense Security Assistance
Management System until the following actions are completed.

       a. Develop a life-cycle cost estimate for the Defense Security
Assistance Management System Training Module that includes all costs for
the program, such as development, acquisition, operations and support, and
disposal.

        b. Develop and implement a Plan of Action and Milestones that
identifies tasks, resources, and milestones needed to complete the Defense
Security Assistance Management System Training Module and fully deploy
the module to include identifying valid dates and costs to complete tasks.

       c. Coordinate with the system’s users and testing officials from the
Office of the Director, Operational Test and Evaluation to update the
Defense Security Assistance Management System operational requirements
document.

       d. Establish an information security program executive officer
position to manage the acquisition of all Defense Security Cooperation
Agency information systems.

        e. Appoint or hire a program manager and a program executive
officer for the Defense Security Assistance Management System that is
certified in accordance with the Defense Acquisition Workforce


                                    16 

Improvement Act, section 1735, “Education, Training, and Experience
Requirements for Critical Acquisition Positions,” within 180 days of the
issuance of our final report.

        f. Implement a risk management process to monitor and control the
risks identified in this report and potential future risks.

       g. Conduct a security investigation in accordance with Federal
Information Processing Standards Publication 201-1, “Personal Identity
Verification of Federal Employees and Contractors,” March 2006, on all
Government and contractor personnel assigned to the Defense Security
Assistance Management System program.

      Management Comments. The Director, Defense Security Cooperation
Agency concurred with the recommendations.

       Audit Response. Although the Director, DSCA concurred with the
recommendations, he did not provide his plan of action or completion dates for
Recommendations 3.a. through 3.g. We request the Director, DSCA provide the
additional comments on these recommendations by January 7, 2008.




                                   17 

Appendix A. Scope and Methodology 

   We conducted this performance audit from October 2006 through
   September 2007 in accordance with generally accepted government auditing
   standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   Our objective was to assess whether DSCA adequately planned and provided
   proper oversight during the development and implementation of the DSAMS
   Training Module. Specifically, we determined whether the Training Module used
   an obsolete computer language, was more costly than legacy systems, provided
   the functionality required by users, and produced reliable information.

   We were not able to assess two of our announced objectives. We could not
   determine whether DSAMS was more costly than current legacy systems. Since
   approximately 1995, the legacy systems used by the Army, Navy, and Air Force,
   international, security, and training personnel received minimal funds to keep
   them operating. Therefore, the costs to minimally maintain a legacy system to
   operate were not comparable with all the costs associated with developing,
   acquiring, and sustaining a system with the intended capabilities of DSAMS. In
   addition, we were not able to substantiate user claims that the Training Module
   does not produce reliable information. Because DSCA deployed the Training
   Module in October 2006, we could not determine whether the difficulties the
   users faced were due to problems with the system, a lack of training, or a lack of
   experience with the use of the module. The scope limitations, however, were not
   significant enough to impact the material basis for the findings and conclusions in
   this report.

   Project Documentation. We analyzed the following DSAMS documents: actual
   cost and cost estimates, the conceptual design document, the test and evaluation
   master plan, the acquisition plan, the acquisition strategy, and change control and
   help desk policies. The documents were dated from June 1995 through
   June 2007. We assessed the project documentation for compliance with
   requirements identified in section 1735, title 10, United States Code; the Federal
   Acquisition Regulation; DoD Directive 5000.1; DoD Instruction 5000.2; and the
   DoD Financial Management Regulation.

   In November 2006, we attended a DSAMS demonstration in Mechanicsburg,
   Pennsylvania. We interviewed program officials from the DSAMS PMO, the
   DSAMS Program Manager, system end users, and Government developers. We
   conducted site visits to user locations at the Naval Education and Training
   Security Assistance Field Activity, Pensacola, Florida; the Army’s Security
   Assistance Training Field Activity, Fort Monroe, Virginia; the Air Force Security
   Assistance Training, San Antonio, Texas; the U.S. Marine Corps Security
   Cooperation Education and Training Center, Quantico, Virginia; and the
   U.S. Coast Guard, Washington, D.C.



                                       18 

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in the Department of
    Defense. This report provides coverage of the “Protecting the Federal
    Government’s Information Systems and the Nation’s Critical Infrastructures,”
    “Department of Defense Approach to Business Transformation,” and
    “Department of Defense Business Systems Modernization” high-risk areas.


Prior Coverage
    During the last 9 years, the DoD IG issued three reports discussing DSAMS.
    Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2002-142, “Government Information Security Reform Act
    Implementation: Defense Security Assistance Management System,” August 30,
    2002

    DoD IG Report No. D-2001-141, “Allegations to the Defense Hotline on the
    Defense Security Assistance Management System,” June 19, 2001

    DoD IG Report No. 98-095, “Defense Security Assistance Management System,”
    March 24, 1998




                                        19 

Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology and Logistics
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy
Assistant Secretary of Defense (Networks and Information Integration)/Chief
   Information Officer
Director, Operational Test and Evaluation
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Security Cooperation Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency




                                          20 

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      21 

Assistant Secretary of Defense for Networks and
Information Integration Comments


                                   OFFICE OF T H E ASSISTANT SECRETARY OF DEFENSE
                                                 6000 DEFENSE PENTAGON
                                                WASHINGTON, DC 20301-6000


                                                                                      OCT 2 3 2O07
  NETWORKS   AND   INFORMATION 

        INTEGRATION 




             MEMORANDUM FOR PROGRAM DIRECTOR, ACQUISITION AND CONTRACT
                              MANAGEMENT, INSPECTOR GENERAL,
                              DEPARTMENT OF DEFENSE

             SUBJECT: Report on Management of the Defense Security Assistance Management
                      System Training Module (Project No. D2007-D000AS-0052.000)


                       This memorandum is in response to the subject draft report provided to this office

             for review and comment. Our response to the audit report recommendation is attached.


                       We appreciate the opportunity to respond to your draft audit report. My point of

             contact is Mr. William May. He can be reached by telephone at (703) 602-2720 x106 or

             email at William.May@osd.mil.




                                                          Timothy J. Harp
                                                         DASD(C3ISR & IT Acquisition)
                                                         Acting

             Attachment: 

             As stated 





[recycling symbol]

                                                          23
             DEPARTMENT OF DEFENSE INSPECTOR GENERAL 

              DRAFT REPORT Project No. D2007-D000AS-0052.000 


  Agency comments on Draft Report, "Management of the Defense Security Assistance
                      Management System Training Module"

   OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE (NETWORKS AND
                     INFORMATION INTEGRATION)


Recommendation 1: We recommend that the Assistant Secretary of Defense (Network
Integration and Information)/Chief Information Officer include the Defense Security
Assistance Management System on the information technology initiatives listing
and oversee the system's cost, schedule, performance, and testing until the system
is fully operational and the system's computer language is converted.

OASD(NII) Response: Concur. We will add the Defense Security Assistance
Management System Training Module to our Designation of Major Automated
Information System Programs and Information Technology Services Acquisitions
Oversight List currently being coordinated with the Components.




                                        24 

Office of the Secretary of Defense, Operational
Test and Evaluation Comments


                                 OFFICE OF T H E SECRETARY OF DEFENSE
                                          1700 DEFENSE PENTAGON
                                         WASHINGTON, DC 20301-1700



   OPERATIONAL T E S T




    ANDEVALUATION M E M O R A N D U M FOR P R O G R A M DIRECTOR, ACQUISITION A N D C O N T R A C T 

                                         M A N A G E M E N T , OFFICE OF T H E INSPECTOR GENERAL 


            SUBJECT: Report on Management of the Defense Security Assistance Management System
                     Training Module (Project No. D2007-D000AS-0052.000)



                    I concur with your recommendation to include the Defense Security Assistance
            Management System on our oversight list and to require the program to meet operational test and
            evaluation requirements in accordance with DoD Instruction 5000.2, "Operation of the Defense
            Acquisition System," May 12, 2003. I will include the program on the Calendar Year 2008
            Office of the Secretary of Defense Test and Evaluation Oversight List.

                    I appreciate the opportunity to comment on the subject draft report. Should you have any
            additional questions, please contact my action officer, Austin Huangfu, at (703) 681-5470 or via
            e-mail at austin.huangfu@osd.mil.




                                                        Dr. Charles E. McQueary
                                                        Director




                                                        25
Defense Security Cooperation Agency
Comments


                               DEFENSE SECURITY COOPERATION AGENCY                     OCT     23     2007

                                          W A S H I N G T O N , DC 20301-2800

                                                                                        In reply refer to:
                                                                                        1-07/013687-1T

      M E M O R A N D U M FOR D O D INSPECTOR G E N E R A L

      S U B J E C T : Report on M a n a g e m e n t of the Defense Security Assistance M a n a g e m e n t
                      System Training M o d u l e (Project N o . D 2 0 0 7 - D 0 0 0 A S - 0 0 5 2 . 0 0 0 )

      References:
         1. D o D IG M e m o r a n d u m : Report on M a n a g e m e n t of the Defense Security
            Assistance M a n a g e m e n t System Training M o d u l e (Project No. D 2 0 0 7 - D 0 0 0 0 A S -
            0 0 5 2 . 0 0 0 ) , S e p t e m b e r 17, 2007
         2. D o D IG Draft Report: " M a n a g e m e n t of the Defense Security Assistance
            M a n a g e m e n t System Training M o d u l e " , S e p t e m b e r 17, 2 0 0 7



          Reference 1 requested Defense Security Cooperation Agency ( D S C A ) c o m m e n t s on
      the Reference 2 report (the Report) that deals with m a n a g e m e n t of the Defense Security
      Assistance M a n a g e m e n t System ( D S A M S ) Training Module.

          D S C A appreciates this opportunity to c o m m e n t .

      GENERAL COMMENTS

          In general, the Report d o e s not convey the operational status of the D S A M S program:

      •   T h e D S A M S C a s e Development Module ( C D M ) and C a s e Implementation M o d u l e
          (CIM | have been in full operational use since 1999 and 2000, respectively. Since
          then, D S A M S h a s been used to produce over 3 0 , 0 0 0 d o c u m e n t s (Letters of Offer and
          Acceptance, modifications, and a m e n d m e n t s ) culminating in Foreign Military Sales
          of o v e r $ 1 0 0 billion. Further, the existence of D S A M S has since enabled D S C A to
          m a k e significant i m p r o v e m e n t s in the Security Assistance program that would have
          been highly difficult in the legacy environment.


      •   T h e D S A M S Training M o d u l e ( T M ) has been in operational use by the A r m y and
          N a v y for one fiscal year, including the transition of A r m y and N a v y legacy s y s t e m s
          and the conversion of over seven million legacy records. During that time it has
          m a n a g e d the foreign military training programs for well over 10,000 foreign military
          students.




                                                         26
      Consequently, D S C A regards D S A M S as an operational system today and regards
p r o d u c t i o n m a i n t e n a n c e and support as the first priority, with completion of T M
d e v e l o p m e n t for the Air Force as the second, but still important, priority. T h e Report
claims that D S A M S should not be considered fully operational until a transformation
from the Forte (now called Unified D e v e l o p m e n t Server; hereafter Forte/UDS)
p r o g r a m m i n g language is completed. Since the end-of-support a n n o u n c e m e n t for
F o r t e / U D S b y Sun Microsystems occurred three years after C D M w a s deployed, D S C A
regards the F o r t e / U D S transformation as a maintenance problem and not a development
milestone towards Full Operational Capability.

      A s regards personnel vetting for the F o r t e / U D S p r o g r a m m i n g language
transformation, all personnel o n the project will receive a trustworthiness certification,
usually a National A g e n c y C h e c k with inquiries (NAC-I), or the national equivalent. T o
obtain a competition a m o n g highly qualified firms, D S C A , with O S D concurrence,
o p e n e d the competition to allow p r i m e contractors and citizens of the United K i n g d o m ,
C a n a d a , Australia, and N e w Zealand, as well as the United States. This w a s d o n e
b e c a u s e our requests for information to industry revealed that all highly experienced
F o r t e / U D S Transformation vendors had major off-shore elements.

 D o D IG R E P O R T R E C O M M E N D A T I O N S

        D S C A concurs with all r e c o m m e n d a t i o n s .




                                                  Jeffrey    A.    Wieringa
                                                  Vice Admiral,        USN




                                                       27
Office of the Deputy Under Secretary of the 

Air Force, International Affairs Comments 





   OFFICE OF THE UNDER SECRETARY

                                                                                                 OCT 1 6 2007

          M E M O R A N D U M F O R DEPUTY INSPECTOR GENERAL FOR AUDITING 

                                    OFFICE OF THE INSPECTOR GENERAL 

                                    DEPARTMENT OF DEFENSE 


          FROM: SAF/IAP 

                1080 Air Force Pentagon 

                Washington, DC 20330-1080 


          SUBJECT: Management of the Defense Security Assistance Management System Training
                   Module (DSAMS TM), 17 Sep 07 (Project No. D2007-D000AS-0052.000)

                 This is in reply to your request to review and comment on the subject report.

                 The report should mention that the services have been discouraged by DSCA from
         spending funds for legacy system modifications since entering a "brown-out" state more than 10
         years ago. DSCA views achieving compliance with the Chief Financial Officers (CFO) Act of
         1990 (Public Law 101-576) in AFSAT legacy systems as a disruption to D S A M S TM and has
         fought to limit any expenditure of funds to achieve compliance. The CFO Act of 1990 is not
         optional and the Air Force is given no viable solution from DSCA that includes visibility into the
         DSAMS TM Program Manager's milestones or any commitment for a deployment date so that
         compliance may be achieved.


                Please feel free to contact Mr. Eric Cole, 703-588-8970, if you require further
         information related to this matter. I appreciate your interest in our response to this draft report
         and look forward to receiving the final report.




                                                               RICHAJRD A. GENAILLE, Jr.
                                                               Director of Policy
                                                               International Affairs
                                                               Director of Policy
                                                               International Affairs
         cc: 

         SAF/FMP 

         SAF/FMB 





                                                          28
Air Force Security Assistance Training
Squadron Comments
                                                                                                             Final Report
                                                                                                              Reference




                                  DEPARTMENT                 OF THE         AIR   FORCE
                         AIR F O R C E   SECURITY   ASSISTANCE   TRAINING    SQUADRON   (AETC)




                                                                                                 17 Oct 07

     MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDITING OFFICE OF
     THE INSPECTOR GENERAL DEPARTMENT OF DEFENSE

     FROM: AFSAT/CC 

           315 J Street West 

           Randolph AFB TX 78150-4354 


     SUBJECT: Management of the Defense Security Assistance Management System Training
     Module (DSAMS TM), 17 Sep 07 (Project No. D 2 0 0 7 - D 0 0 0 A S - 0 0 5 2 . 0 0 0 )

     1. This is in reply to your request to review and comment on the subject report. The report
     should clarify the following:

         a. The fifth delay was a result of revised requirements based on recommendations from the           Added
     DFAS working group team member, and the process changes were made to the AF requirements
     to help achieve compliance with the C F O Act. Reference page 7, fifth paragraph, last sentence

         b. The Air Force still does not have any firm commitment from DSAMS PM that we will
     implement the module in October 2008. Recent email traffic between the SAF/IA and DSCA
     CIO state that the DSAMS TM schedule for October 2008 is "high risk." Reference page 8.
     second paragraph, last sentence.

     2. Please feel free to contact Ms Diane Carolan at DSN 487-8811 or our DSAMS-PM Ms Laura
     Wyninegar at DSN 487-1074 if you require further information related to the DSAMS project. I
     appreciate the opportunity to respond to this draft report and look forward to receiving the final
     audit report.




                                                                 DAVID E. SNODGRASS, Colonel, USAF
                                                                 Commander

     cc:
     HQ A ETC/IA
     HQ AETC7FMPC
     SAF/IAP
     SAF/FMBMS
     SAF/FMP




                                                          29
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Jacqueline L. Wicecarver
Karen J. Goff
Therese M. Kince-Campbell
Susan R. Ryan
Brian S. Benner
Phillip M. Faller
Pedro Calderon
La’Toya D. Holt
Jillisa H. Milner
Meredith H. Johnson
